U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 24, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Rockwood Casualty Insurance Company v. Director, Office of Workers'
Compensation Programs, Department of Labor, et al.
S.CtNo. 19-23

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 28,
2019, and placed on the docket on July 2, 2019. The government's response is due on August 1,
2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 3, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0023
ROCKWOOD CASUALTY INSURANCE COMPANY
DIRECTOR, OWCP, DEPARTMENT OF LABOR, ET
AL.

BRAD AUSTIN
WOLFE WILLIAMS & REYNOLDS
470 PARK AVENUE
P0 BOX 625
NORTON, VA 24273
276-679-0777
BAUSTIN@WWRRLAWFIRM.COM
VICTORIA S. HERMAN
WOLFE WILIAMS & REYNOLDS
28 CROSS ROADS DRIVE
MOUNT HOPE, WV 25880
276-870-2717
VHERMAN@WWRRLAWFIRM.COM
CHERYL L. INTRAVAIA
FEIRICH/MAGERIGREEN/RYAN
2001 WEST MAIN STREET
P0 BOX BOX 1570
CARBONDALE, IL 62903
618-529-3000
CINTRAVAIA@FMGR.COM

